                       National Archives and Records Administration
                                                                                               8601 Adelphi Road
                                                                              College Park, Maryland 20740-6001

Date       : March 2, 2010

Reply to   : Office of Inspector General (OIG)

Subject    : Management Letter No. OI 10-01, 1930 Census Website Contracting Issues

To:         David S. Ferriero, Archivist of the United States (N)

           The purpose of this management letter is to inform you of contracting problems surrounding the
           National Archives and Records Administration (NARA’s) 1930 Census microfilm locator
           website, http://1930census.archives.gov/. The Office of Inspector General (OIG) discovered
           these issues while investigating a potential unauthorized access of a NARA computer system.
           Based upon our analysis, from approximately April 2003 until June 2006, NARA used hosting
           services for this site from a contractor without paying for them. NARA’s lack of effective file
           keeping prevents a definitive calculation of the value of these services. However, based upon
           NARA’s prior and subsequent payments for the service and contractors’ bids, the approximate
           fair market value of the 37 months of work NARA received for free is somewhere between
           $83,116 and $744,371. 1

           Federal agencies are not allowed to accept gratuitous services, gifts, or voluntary services from
           contractors except under very limited circumstances specifically allowed by law. In the present
           case there was no authority for NARA to accept such services for free. When asked directly
           about these services, the Director of NARA’s Acquisition Services Division (NAA) and the
           contracting officer’s technical representative (COTR) for this issue expressed unfamiliarity with
           what happened. We note the current Director of NAA did not assume the position until January
           2005. Further, NARA’s lack of an effective record keeping or filing system has made it
           impossible to decipher the facts surrounding this action based upon a lack of documentary
           evidence. If a contractor is expecting payment, accepting services without paying for them can
           lead to lawsuits. If a contractor is not expecting payment, accepting free services could be a
           violation of the Antideficiency Act or could be considered an improper augmentation of an
           agency’s appropriation.

           Regardless of any legal implications, accepting free services or “gifts” from a contractor doing
           business with the federal government can certainly give the appearance of impropriety to other
           contractors and the general public. While we found no actual evidence of untoward conduct by
           any of the parties involved, there is certainly a perception issue when the government receives
           services for free from a contractor engaged in other work at an agency. This is especially true in
1
 In 2003 NARA was paying a contractor $20,118 per month specifically for 1930 Census site web-hosting services. Another
contractor’s 2003 bid to provide web-hosting for the 1930 Census and another site totaled $26,956 per year. NARA’s current
contract covers web-hosting and other services for the 1930 Census and multiple other sites at approximately $20,030.42 per
year.
          light of the fact NARA awarded this particular contractor over $43 million in contracts during the
          relevant time period. 2 Neither the Director of NAA nor the relevant COTR was responsive when
          asked what they thought of any perception issues.

          One reason NAA disputes that there was any issue with accepting these services without payment
          is based on the contention the vendor did not actually incur costs. NAA contends the contractor
          was able to provide these services at either little or no cost using equipment NARA was already
          paying to use to host other websites. This is akin to saying that since NARA already has cell-
          phones there would be no problem if a telecommunications company gave us service plans for
          free, since adding customers to an existing cell-phone network costs a company a comparatively
          negligible amount. This completely ignores the fact these services had a fair market value. In
          fact, immediately prior to accepting this work for free, NARA was actually paying a different
          contractor approximately $20,000 per month to host this site. 3 Further, the contractor, before
          actually providing these services for free, submitted a bid to do this exact work for a fee. Finally,
          the work is now covered under a new contract and is being paid for.

          We identified other issues surrounding the contracting actions involving NARA’s 1930 Census
          website, including:

          •    the contractor’s development of the 1930 Census website, and evaluation of bids on the site’s
               initial hosting, may have been outside of the scope of their contract;

          •    NARA was unable to confirm whether work on another web-based project during this same
               period was competitively bid or not;

          •    NARA was unable to explain why a FY 2002 purchase order was paid in FY 2003;

          •    In contract documents the contractor stated their support of the 1930 Census and
               OurDocuments websites were covered by “other agreements,” but NARA was unable to
               explain to our office what these agreements were or provide copies of these agreements;

          •    NARA was unable to explain why a contractor was allowed to bid on the second contract for
               hosting the 1930 Census website after that contractor reviewed all bids (including the
               incumbent’s) for NARA on the first web-hosting contract for the site.

          While important in their own right, the overarching problem apparent in trying to research these
          issues is the lack of effective recordkeeping for these contract actions. In multiple instances,
          when asked about procurements or contracting actions related to this management letter, neither
          the current Director of NAA nor the relevant COTR would comment because there was no
          personal or institutional memory, and they were unable to produce relevant documentation. As a
          result, both the current NAA leadership and our office were severely impaired in investigating the
          circumstances surrounding the 1930 Census website. We realize some of the actions reviewed in
          this management letter are fairly old, starting in FY 2001. However, the problem of free services

2
    All contracts with this contractor for the relevant period were competitively awarded.
3
    This contract had allocated for a very high level of traffic to the site, however, this traffic had reduced significantly.
          persisted until FY 2006 and therefore these records should be readily available and thoroughly
          detailed.

          When presented with the issues in this management letter, NAA indicated they had previously
          recognized some of the deficiencies presented, particularly with documentation, and have been
          working to overcome them. In particular, the problematic issues were generally done by “field”
          contracting officers (COs) who were warranted COs, but were not actually assigned and working
          in NAA. The new Director of NAA has made many improvements since arriving in 2005 in this
          non-NAA acquisition area, including the consensual removal of the CO in question for this issue.
          NAA has taken several other laudable steps in this area including implementing a mandatory
          three day simplified acquisition training class for such staff, changing some COs to buyers 4,
          requiring all COs and buyers to complete training classes, reviewing the documentation of the
          field offices, assigning a dedicated NAA CO to work with the field staff, working with NR and
          NL to allow existing COs to perform acquisition support to other offices to help eliminate the
          problems of some offices doing infrequent purchases, and reducing almost all CO warrants to
          $25,000.

          However, even with these improvements the conditions discussed in this management letter
          demonstrate a lack of transparency and accountability in the actions surrounding the 1930 Census
          website. Furthermore, at the very least they give the appearance of impropriety in this contracting
          action to the public and other contractors. By March 31, 2010, please submit an action plan to the
          OIG describing how you plan to address the issues discussed in this management letter including
          the recommendations of the agency ethics official and general counsel’s office. If you have any
          questions, or require additional information, please do not hesitate to contact me.



          Paul Brachfeld
          Inspector General

          cc: NAA (A. Edgar)




4
    Buyers prepare the acquisition documents but the award is reviewed and signed by a CO.
